D

vJ

FILED

NOT FOR PUBLICATION

AUG 6 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
DAVID SMITH-GARCIA, AKA David
Garland Atwood II,
Plaintiff-Appellant,

No.

19-55449

D.C.No.
3:17-cv-01315-MMA-BLM

v.
MEMORANDUM*
PAULA BURKE, U.S. Probation Officer,
Defendant-Appellee,

lA()j)eo<\~nc

A

and
UNITED STATES OF AMERICA; U.S.
PROBATION,
Defendants.

Appeal from the United States District Court
for the Southern District of California
Michael M. Anello, District Judge, Presiding
Submitted August 4, 2020**
San Francisco, California
Before: THOMAS, Chief Judge, and HAWKINS and McKEOWN, Circuit
Judges.
*
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

David Smith-Garcia, AKA David Garland Atwood II, challenges the district
court’s dismissal of his claims alleging an Eighth Amendment violation by U.S.
Probation Officer Paula Burke related to Smith-Garcia’s supervised release. We
have jurisdiction under 28 U.S.C. § 1291, and we affirm.
We review de novo dismissal for failure to state a claim under Fed. R. Civ.
P. 12(b)(6). Sonoma Cty. Ass'n ofRetired Emps. v. Sonoma Cty., 708 F.3d 1109,
1115 (9th Cir. 2013). A complaint does not require “detailed factual allegations,”
but it “must contain sufficient factual matter, accepted as true, to state a claim to
relief that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(internal marks and citations omitted).
We decline to extend a Bivens remedy to Smith-Garcia’s claim. See Bivens
v. Six Unknown Named Agents ofFed. Bureau ofNarcotics, 403 U.S. 388 (1971).
In Ziglar v. Abbasi, the Court cautioned lower courts not to expand Bivens
remedies outside the three previously recognized Bivens claims. 137 S. Ct. 1843,
1854-57 (2017) (citing Bivens, 403 U.S. at 396 (unreasonable search and seizure
under the Fourth Amendment); Davis v. Passman, 442 U.S. 228, 248-49 (1979)
(gender discrimination under the Fifth Amendment Due Process Clause); Carlson
v. Green, 446 U.S. 14, 19 (1980) (Eighth Amendment violation for failure to
provide adequate medical treatment)). Smith-Garcia’s claim—that a U.S. Probation
Officer was deliberately indifferent to his medical care when the officer prevented

2

him from moving to San Diego to seek free medical care while under supervised
release—arises in anew Bivens context. See Abbasi, 137 S.Ct. at 1864.
If a proposed claim arises in a new context, courts must conduct a two-step
analysis to determine whether to extend a Bivens remedy. Vega v. United States,
881 F.3d 1146, 1153 (9th Cir. 2018). At step one, the court asks “whether any
alternative, existing process for protecting the interest amounts to a convincing
reason for the Judicial Branch to refrain from providing a new and freestanding
remedy in damages.” Id. Because Smith-Garcia has an alternative process by
which to pursue his claim—filing a motion to transfer his supervised release—we
need not reach step two.
Finally, the district court did not abuse its discretion in dismissing Smith Garcia’s motion to recuse. See United States v. McTiernan,- 695 F.3d 882, 891 (9th ■
Cir. 2012). “[A] reasonable person with knowledge of all the facts” would not
conclude that the district court judge’s “impartiality might reasonably be
questioned.” Mayes v. Leipziger,729 F.2d 605, 607 (9th Cir. 1984) (internal
quotation marks and citations omitted); see Yagman v. Republic Ins., 987 F.2d 622,
626 (9th Cir. 1993) (plaintiffs assertions “are nothing more than speculation.”).
AFFIRMED.

ase 3:17- cv-01315-MMA-BLM Document 44 Filed 03/29/19 / PagelD.241 Page 1 of 16
i

1
2
3

Appends

4
5
6
7

UNITED STATES DISTRICT COURT

8

SOUTHERN DISTRICT OF CALIFORNIA

9
10
11
12

15

ORDER DENYING PLAINTIFF’S
MOTION FOR RECUSAL;

Plaintiff,

13
14

Case No.: 17cvl315-MMA (BLM)

DAVID GARLAND ATWOOD II, AKA
DAVID SMITH OR DAVID SMITHGARCIA,

[Doc. No. 28]

v.

AND GRANTING DEFENDANT’S
MOTION TO DISMISS

OFFICER PAULA BURKE,

[Doc. No. 21]

Defendant.

16
17
18
19

Plaintiff David Garland Atwood II, AKA David Smith (“Plaintiff’), proceeding

20

pro se and in forma pauperis (“IFP”), is currently incarcerated at United States

21

Penitentiary Tucson.1 Plaintiff filed a First Amended Complaint against Defendant

22

Officer Paula Burke (“Defendant”), an employee of the U.S. Probation Office in San

' 23

Diego, California, pursuant to Bivens v. Six Unknown Named Fed. Narcotics Agents, 403

24

U.S. 388 (1971). See Doc. No. 18 (hereinafter “FAC”).2 Plaintiff alleges Defendant was

25
26
27
28

i

At the time Plaintiff commenced this action, Plaintiff was a federal prisoner on supervised

release.
2 All citations to specific pages refer to the pagination assigned by the CM/ECF system.
-1-

17cvl315-MMA (BLM)

ase 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.242 Page 2 of 16

1

deliberately indifferent to his medical needs in violation of his Eighth Amendment rights.

2

FAC

3

85-86.3
On December 19, 2018, Defendant filed a motion to dismiss Plaintiffs FAC for

4

failure to state a claim upon which relief can be granted. See Doc. No. 21. Plaintiff filed

5

an opposition, as well as a supplemental opposition, to which Defendant replied. See

6

Doc. Nos. 27, 37, 38.

7

Plaintiff also filed various motions for relief, including a Motion for Recusal,

8

Motion for Summary Judgment, and Motion for Court Order to Allow Access to Legal

9

Materials.4 See Doc. Nos. 28, 32, 33. Defendant filed oppositions to the respective

10

motions. See Doc. Nos. 41, 39, 40. To date, Plaintiff has not filed reply briefs in support

11

of his motions.

12

The Court found the matters suitable for determination on the papers and without

13

oral argument pursuant to Civil Local Rule 7. l.d.l. See Doc. Nos. 42, 43. For the

14

reasons set forth below, the Court DENIES Plaintiffs Motion for Recusal and GRANTS

15

Defendant’s Motion to Dismiss.

16
17

Background
Plaintiff has been “diagnosed with idiopathic, Stage Three, Bi-lateral, Avascular

18

Necrosis (AVN)” in both of his hips. FAC f 3. In March 2017, Plaintiff met with an

19

orthopedic surgeon at the University of Mississippi Medical Center, who opined that due

20

to “the progression of the disease in the left hip, the only treatment option [is] a total hip

21
22
23
24
25

3 Plaintiff also claims Defendant retaliated against him in violation of his First Amendment
rights. See FAC tlf 88-89. In opposition to Defendant’s motion to dismiss, however, Plaintiff
“concedes that his First Amendment retaliation claim is foreclosed by Ziglar v. Abbasi and does not
contest the Court dismissing this claimQ.” Doc. No. 27 at 17. As such, the Court DISMISSES
Plaintiff s First Amendment Bivens claim.

26
27
28

In his Motion for Court Order to Allow Access to Legal Materials, Plaintiff requests access to
his medical records stored on CD-ROM and/or flash drives. See Doc. No. 33. Plaintiff claims that
without access to his medical records, he “will be unable to appropriately respond to filings from the
defendant and litigate this case.” Id. at 3.
-2-

17cvl315-MMA (BLM)

ase 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.243 Page 3 of 16

1

replacement.” Id. Tf 12. The doctor further opined that other options may be available “to

2

save the structural integrity of the right hip.” Id.

3

13.

Plaintiff was on federal supervised release at the time, and sought permission from

4 his U.S. Probation Officer, Shameka Horton, to temporarily move to San Diego,
5

California, to obtain medical treatment. Id.

40. Plaintiff claims that he could not afford

6 treatment in Mississippi, but if he moved to San Diego, he “would have been able to
•7 enroll in the clinical trial wherein he could have obtained free treatment[.]” Id. 138.
8

Officer Horton indicated “she would approve the transfer to San Diego if the U.S.

9 Probation Officer in San Diego would agree to accept supervision.” Id.

41. Defendant,

10 an employee of the U.S. Probation Office in San Diego, eventually denied Plaintiffs
11

request to move to San Diego. See id. ^ 54. Plaintiff alleges that Defendant, in a letter to

12

Congressman Scott Peters, indicated she denied Plaintiffs request because “a cursory

13

Google search of [Plaintiffs] condition reveals numerous providers in Mississippi” and

14 “given that there will be undetermined, and potentially significant expenses in relation to
15

his treatment, it does not seem reasonable that the State of California should bear that

16 burden.” Id. f 56.
17
18

Shortly after Defendant denied Plaintiffs request to move to San Diego, Plaintiff
commenced the instant action against the United States of America and the U.S.

19 Probation Office. See Doc. No. 1. Plaintiff alleges that after commencing the instant
20

action, Defendant contacted Officer Horton in Mississippi and requested that Officer

21

Horton and the Probation Office in Mississippi “proceed with filing the petition to revoke

22

Atwood’s supervised release so as to moot the requests to move to San Diego, moot the

23

lawsuit and mandamus petition, and to moot the motion to transfer supervised release

24

from Mississippi to San Diego.” FAC Tf 65. Plaintiff alleges Defendant told Officer

25

Horton that “San Diego was tired of dealing with Atwood” and that “continuously filing

26

lawsuits was not going to get Atwood anywhere in San Diego or Mississippi[.]” Id.

66.

27 The district judge presiding over Plaintiffs case in Mississippi ultimately revoked his
28

supervised release and sentenced him to prison with an “expected release date in 2022.”
-3-

17cvl315-MMA (BLM)

ase 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.244 Page 4 of 16

1

Id. H 68.
Based on the foregoing, Plaintiff alleges that in denying his request to move to San

2
3

Diego to obtain treatment and surgery for his AVN disease, “Officer Burke was

4

deliberately indifferent to his medical needs,” in violation of the Eighth Amendment. Id.

5

T| 85. Plaintiff brings this claim against Defendant in her individual capacity pursuant to

6

Bivens, and seeks compensatory, nominal, and punitive damages. See id. Iflf 2, 91-93.
Discussion

7
8

9

I.

Plaintiffs Motion for Recusal
As a preliminary matter, Plaintiff requests the Court “recuse itself and have the

10

case reassigned to a judge outside the judicial Southern. District of California” because

11

Defendant is a probation officer, employed in this District. Doc. No. 28 at 1. Plaintiff

12

contends that because Defendant “works closely on a daily basis with the judges of this

13

district,” the Court’s impartiality “might reasonably be questioned[.]” Id. at 1-2.

14

Defendant opposes Plaintiffs motion, indicating that a purely professional relationship

15

does not suggest an appearance of impropriety. See Doc. No. 41 at 2.

16

Recusal of federal judges is governed by 28 U.S.C. §§ 144 and 455. Under Section

17

144, a party must show “personal bias or prejudice either against him or in favor of any

18

adverse party[.]” 28 U.S.C. § 144. Under Section 455, “[a]ny justice, judge, or

19

magistrate judge of the United States shall disqualify himself in any proceeding in which

20

his impartiality might reasonably be questioned.” 28 U.S.C. § 455(a). Under both

21

statutes, the standard for recusal is “whether a reasonable person with knowledge of all

22

the facts would conclude that the judge’s impartiality might reasonably be questioned.”

23

Mayes v. Leipziger, 729 F.2d 605, 607 (9th Cir. 1984). “The reasonable person is not

24

someone who is hypersensitive or unduly suspicious, but rather is a well-informed,

25

thoughtful observer.” U.S. v. Holland, 519 F.3d 909, 913 (9th Cir. 2008) (internal

26

quotation marks and citation omitted). While it is “important that judges be and appear to

27

be impartial,” it is “also important. . . that judges not recuse themselves unless required

• 28

to do so, or it would be too easy for those who seek judges favorable to their case to
-4-

17cvl315-MMA (BLM)

ase 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.245 Page 5 of 16

1 disqualify those that they perceive to be unsympathetic merely by publicly questioning
2 || their impartiality.” Perry v. Schwarzenegger, 630 F.3d 909, 916 (9th Cir. 2011).
3

Here, the Court finds that Plaintiff does not state an appropriate ground for recusal.

4 || The Undersigned has no familial, personal, or financial relationship to Defendant.
5 11 Moreover, Plaintiff has not demonstrated that any act by the Undersigned evidences
6

firmly rooted antagonism or bias. Rather, Plaintiff speculates that the professional

7

relationship between probation officers and judges of the Southern District might give

8
9
10

for a reasonable observer to question the impartiality of the judges. However, recusal
rise
is not warranted under §§ 144 or 455 based on speculation. See Yagman v. Republic Ins.,
987 F.2d 622, 626 (9th Cir. 1993) (noting that the plaintiff s assertions “are nothing more

11 than speculation.”). Additionally, Plaintiff does not cite to , nor is the Court aware of, any
12 || authority holding that an individual’s professional relationship with a judge suggests an
13
14

appearance of impropriety. Cf United States Sundrud, 397 F. Supp. 2d 1230, 1236
(C.D. Cal. 2005) (denying the plaintiffs motion to recuse all judges of the Central

15

District of California and noting that a “casual relationship with a victim officer who

16

provides court security does not require recusal.”); Pellegrini v. Merchant, No. 16cvl292

17

LJO-BAM, 2017 WL 735740, at *3 (E.D. Cal. Feb. 24, 2017) (denying the plaintiffs

18

motion for recusal and noting that the plaintiff “provides no authority holding that a

19 || purely professional association suggests an appearance of impropriety”).
20

In sum, the Undersigned is unaware of any reason why he cannot continue to be

21
22

impartial in exercising his duties relating to this case. See Holland, 519 F.3d at 915.
Upon examination of Plaintiff s arguments, and in considering the facts of this case, the

23

Court concludes that there is no reason why a reasonable person with knowledge of all

24

the facts would question the Undersigned’s impartiality in this case. Accordingly, the

25

Court DENIES Plaintiffs motion for recusal. See Clemens v. U.S. Dist. Court for the

26 || Cent. Dist. of Cal, 428 F.3d 1175, 1180 (9th Cir. 2005) (“Given that mandatory
27

disqualification of a single judge is not warranted simply because of a professional

28

relationship with a victim, it follows perforce that disqualification of an entire district is
-5-

17cvl315-MMA (BLM)

ase 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.246 Page 6 of 16

1

not justified except under highly exceptional circumstances, which are not present here.”)

2

(emphasis in original).

3

II.

4

Defendant’s Motion to Dismiss
Defendant moves to dismiss Plaintiffs FAC for failure to state a claim because: (1)

5

no Bivens remedy exists on the facts alleged; and (2) even if a Bivens remedy did exist,

6

Defendant is entitled to both quasi-judicial and qualified immunity. See Doc. No. 21-1 at

7

2. The Court addresses Defendant’s arguments in turn.

8
9

1. Legal Standard
A Rule 12(b)(6) motion to dismiss tests the sufficiency of the complaint. See

10

Navarro v. Block, 250 F.3d 729, 732 (9th Cir. 2001). A pleading must contain “a short

11

and plain statement of the claim showing that the pleader is entitled to relief.” Fed. R.

12

Civ. P. 8(a)(2). However, plaintiffs must also plead “enough facts to state a claim to

13

relief that is plausible on its face.” Fed. R. Civ. P. 12(b)(6); Bell Atl. Corp. v. Twombly,

14

550 U.S. 544, 570 (2007). The plausibility standard thus demands more than a formulaic

15

recitation of the elements of a cause of action, or naked assertions devoid of further

16

factual enhancement. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). Instead, the complaint

17

“must contain sufficient allegations of underlying facts to give fair notice and to enable

18

the opposing party to defend itself effectively.” Starr v. Baca, 652 F.3d 1202, 1216 (9th

19

Cir. 2011).

20

In reviewing a motion to dismiss under Rule 12(b)(6), courts must assume the truth

21

of all factual allegations and must construe them in the light most favorable to the

22

nonmoving party. Cahill v. Liberty Mut. Ins. Co., 80 F.3d 336, 337-38 (9th Cir. 1996).

23

The court need not take legal conclusions as true merely because they are cast in the form

24

of factual allegations. Roberts v. Corrothers, 812 F.2d 1173, 1177 (9th Cir. 1987).

25

Similarly, “conclusory allegations of law and unwarranted inferences are not sufficient to

26

defeat a motion to dismiss.” Pareto v. FDIC, 139 F.3d 696, 699 (9th Cir. 1998).

27

28

In determining the propriety of a Rule 12(b)(6) dismissal, courts generally may not
look beyond the complaint for additional facts. United States v. Ritchie, 342 F.3d 903,
-6-

17cvl315-MMA (BLM)

ase 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.247 Page 7 of 16

1

908 (9th Cir. 2003). “A court may, however, consider certain materials—documents

2

attached to the complaint, documents incorporated by reference in the complaint, or

3

matters of judicial notice—without converting the motion to dismiss into a motion for

4

summary judgment.” Id.\ see also Lee v. City ofL.A., 250 F.3d 668, 688 (9th Cir. 2001).

5

“However, [courts] are not required to accept as true conclusory allegations which are

6

contradicted by documents referred to in the complaint.” Steckman v. Hart Brewing, Inc.,

7

143 F.3d 1293, 1295-96 (9th Cir. 1998). Where dismissal is appropriate, a court should

8 grant leave to amend unless the plaintiff could not possibly cure the defects in the
9 || pleading. Knappenberger v. City of Phoenix, 566 F.3d 936, 942 (9th Cir. 2009).
10
11

2. Bivens Claim
The Supreme Court in Bivens “recognized for the first time an implied right of

12 || action for damages against federal officers alleged to have violated a citizen s
137 S. Ct. 2003,2006 (2017)

13

constitutional rights.” Hernandez v. Mesa, — U.S. —

14

(quoting Corr. Servs. Corp. v. Malesko, 534 U.S. 61, 66 (2001)). The Court has

15

recognized a Bivens remedy in only three cases: (1) a Fourth Amendment claim for

16

unreasonable search and seizure against FBI agents, Bivens, 403 U.S. at 396; (2) a Fifth

17

Amendment Due Process claim for gender discrimination, Davis v. Passman, 442 U.S.

18

228, 248-49 (1979); and (3) an Eighth Amendment claim for failure to provide adequate

19

medical treatment to a prisoner, Carlson v. Green, 446 U.S. 14, 19 (1980). The Court has

20

“made clear that expanding the Bivens remedy is now a ‘disfavored’ judicial activity,”

21

Z/g/ar v. Abbasi, —U.S. —, 137 S. Ct. 1843, 1857 (2017) (quoting Iqbal, 556 U.S. at

22

675), and the Supreme Court has consistently declined to expand this remedy. “[E]ven a

23 11 modest extension is still an extension.” Id. at 1864.
24

The Supreme Court “articulated a two-part test for determining whether Bivens

25 || remedies should be extended.” Lanuza v. Love, 899 F.3d 1019, 1023 (9th Cir. 2018)
26 || (citing Abbasi, 137 S. Ct. at 1859-60). First, courts must determine whether the case
27

presents anew Bivens context. See Abbasi, 137 S. Ct. at 1859. “If the case is different in

28

a meaningful way from previous Bivens cases decided by th[e] [Supreme] Court, then the
-7-

17cvl315-MMA (BLM)

ase 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.248 Page 8 of 16
l-

1

context is new.” Id. Second, if the context is new, then courts must determine whether

2

here are any “special factors counselling hesitation,” including the availability of

3

alternative remedies, before extending the remedy. Id. at 1857. As such, the Court

4

proceeds by determining whether this case presents a new Bivens context.

5

a. New Bivens Context

6

Plaintiff contends that his Eighth Amendment claim does not present a new Bivens

7

context, and relies on the Supreme Court’s decision in Carlson to support his position.

8

See Doc. No. 27 at 4-7. In Carlson, the plaintiff brought a Bivens suit under the Eighth

9

Amendment on behalf of her deceased son’s estate. 446 U.S. at 16. The plaintiff alleged

10

that her son suffered personal injuries while incarcerated, resulting in his death, because

11

federal prison officials failed to give him proper medical attention. See id. The Supreme

12

Court permitted “a Bivens claim for prisoner mistreatment—specifically, for failure to

13

provide medical care.” Abbasi, 137 S. Ct. at 1864.

14

Here, although Plaintiffs Eighth Amendment claim is similar to Carlson in that it

15

also involves an Eighth Amendment claim for deliberate indifference to medical needs,

16

the Court nevertheless finds that the case at bar “is different in a meaningful way from

17

previous Bivens cases decided by th[e Supreme] Court.” Id. (internal quotation marks

18

and citation omitted). The Supreme Court has made clear that even if a case involves the

19

same “right and mechanism of injury” as Carlson, the case can present a “new context”

20

for Bivens purposes “if judicial precedents provide a less meaningful guide for official

21

conduct[.]” Id. at 1859, 1864.

22

Plaintiff does not cite to, nor is the Court aware, of any Supreme Court or Ninth

23

Circuit authority holding that probation officers can be liable for deliberate indifference

24

to the medical needs of individuals on supervised release. Plaintiff concedes that “neither

25

the defendant [n]or the federal government were obligated to provide [] medical care to

26

him after [his] release” from custody. Doc. No. 27 at 26 (internal quotation marks

27

omitted) (emphasis in original). Indeed, the Supreme Court in Estelle v. Gamble held

28

that the government must provide adequate medical care “for those whom it is punishing
-8-

17cvl315-MMA (BLM)

ase 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.249 Page 9 of 16

1

by incarceration.” 429 U.S. 97, 103 (1976) (emphasis added). The Supreme Court

2

explained that “an inmate must rely on prison authorities to treat his medical needs; if the

3

authorities fail to do so, those needs will not be met.” Id. The Supreme Court concluded

4

that “deliberate indifference to serious medical needs of prisoners constitutes the

5

unnecessary and wanton infliction of pain proscribed by the Eighth Amendment.” Id. at

6

104 (internal quotation marks and citation omitted) (emphasis added). The Supreme

7

Court did not, however, discuss the responsibility of the government to those who are not

8

in its custody. See Sisco v. Cal., No. 5-cv-867GEB JFM P., 2007 WL 1470145, at *20

9

(E.D. Cal. May 18, 2007) (granting summary judgment in favor of parole agent because

10

“[obligations under the Eighth Amendment only arise during plaintiffs incarceration.”),

11

report and recommendation adopted, 2007 WL 1771380 (E.D. Cal. June 18, 2007).

12

Thus, the absence of judicial precedent extending the Eighth Amendment protections to

13

individuals on supervised release supports a finding that the instant action presents a

14

“new context” for Bivens purposes.

15

Moreover, the Supreme Court has twice declined to extend the Bivens remedy to

16

Eighth Amendment suits involving incarcerated individuals. See Minneci v. Pollard, 565

17

U.S. 118, 131 (2012) (refusing to imply a Bivens remedy where a federal prisoner seeks

18

damages from prison guards working at a private federal prison); Malesko, 534 U.S. at 63

19

(holding Bivens cannot be extended to an Eighth Amendment suit against a private prison

20

operator). /Jdere, because Plaintiff was on supervised release at the time of the alleged

21

injury—and not incarcerated—the Court finds the instant action seeks to extend Carlson

22

even further than what the Supreme Court previously rejected in Pollard and Maleskoff

23

Additionally, none of the three cases in which the Supreme Court recognized a Bivens

24

remedy were brought against probation officers. See Malesko, 534 U.S. at 68 (noting that

25

the Supreme Court has “consistently refused to extend Bivens to any new context or new

26

category of defendants.”).

27
28

Accordingly, taking into account the Supreme Court’s admonition that extending
Bivens is now a “disfavored” judicial activity, the Court concludes that Plaintiff s case
-9-

17cvl315-MMA (BLM)

Case 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.250 Page 10 of 16

1

differs in meaningful ways from the three cases in which the Supreme Court has

2

recognized a Bivens remedy. Abbasi, 137 S. Ct. at 1857 (quoting Iqbal, 556 U.S. at 675);

3

see also Vegav. United States, 881 F.3d 1146, 1153 (9th Cir. 2018). (“[Bjecause neither

4

the Supreme Court nor we have expanded Bivens in the context of a prisoner’s First

5

Amendment access to court or Fifth Amendment procedural due process claims arising

6

out of a prison disciplinary process, the circumstances of Vega’s case against private

7

defendants plainly presents a ‘new context’ under Abbasi'''). As such, the Court proceeds

8

to consider whether any special factors counsel against extending Bivens to this area,

9

including whether Plaintiff had alternate avenues of relief available to him. See Abbasi,

10

137S.Ct. at 1857.

11

b. Special Factors Counseling Against Extending Bivens

12

As set forth in Abbasi, “the existence of alternative remedies usually precludes a

13

court from authorizing a. Bivens action.” Id. at 1865. |Here, Plaintiff previously availed
himself of an alternative remedy.| Prior to Plaintiffs reincarceration, Plaintiff filed a

14
15

Motion for Transfer of Supervised Release and/or Modification of Supervised Release in

16

his criminal case in the Southern District of Mississippi, requesting the court permit him

17

to move to San Diego to obtain necessary medical treatment for AVN. See 15-cr-00045-

18

HTW-FKB (S.D. Miss.) (Doc. No. 243). The assigned district judge, however, found

19

Plaintiff guilty of several supervised release violations, revoked his supervised release,

20
21
22
23
24
25
26
27
28

5 Defendant requests the Court take judicial notice of the documents on file in Plaintiff s
criminal case in the Southern District of Mississippi, No. 15-CV-0045-HTW-FKB (S.D. Miss.). See Doc.
No. 21-1 at 2 n.l. Plaintiff does not oppose Defendant’s request. A court ‘“may take notice of
proceedings in other courts, both within and without the federal judicial system, if those proceedings
have a direct relation to matters at issue.’” Bias v. Moynihan, 508 F.3d 1212, 1225 (9th Cir. 2007)
(quoting Bennett v. Medtronic, Inc., 285 F.3d 801, 803 n.2 (9th Cir. 2002)). As such, the Court
GRANTS Defendant’s request for judicial notice. See id.; see also Fed. R. Evid. 201(b). Specifically,
the Court takes judicial notice of the fact that Plaintiff filed a Motion for Transfer of Supervised Release
and/or Modification of Supervised Release (Doc. No. 243), the court denied as moot Plaintiff s motion
(Doc. No. 307), and that Plaintiff subsequently appealed to the Fifth Circuit (Doc. No. 314). See Khoja
v. Orexigen Therapeutics Inc., 899 F.3d 988, 999 (9th Cir. 2018) (noting that in granting a request for
judicial notice, courts must “clearly specify what fact or facts it judicially noticed”).
-10-

17cvl315-MMA (BLM)

Case 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.251 Page 11 of 16
!

1

arid sentenced him to seventy-two (72) months imprisonment. See id. (Doc. No. 307).

r\oAttV 2

Jhe district judge then denied Plaintiffs Motion for Transfer of Supervised Release

);A

and/or Modification of Supervised Release as moot. See id. Plaintiff appealed to the

3
1 ,4

Fifth Circuit. | See id. (Doc. No. 314). Thus, contrary to Plaintiffs assertions that this

5

case is “damages or nothing,” Plaintiff continues to utilize an alternative method of relief.

6

Doc. No. 27 at 16. “[Wjhen alternative methods of relief are available, a Bivens remedy

1

usually is not.” Abbasi, 137 S. Ct. at 1863.
Additional special factors include whether there are “other sound reasons to think

8
9

Congress might doubt the efficacy or necessity of a damages remedy in a suit like this

10

one.” Id. at 1865. Here, the Court finds that there are sound reasons to think Congress

11

would doubt the necessity of a damages remedy against probation officers outside of an

12

individual’s respective judicial district. Moreover, the Court is especially hesitant to

13

recognize a Bivens remedy in the absence of binding authority extending the Eighth

14

Amendment right to adequate medical care to individuals on supervised release,

15

c. Conclusion

16

In sum, the Court finds that Plaintiff seeks a Bivens remedy in a new context, and

17

that special factors counsel hesitation in extending a Bivens remedy to this new context.

18

Accordingly, Plaintiff fails to state a claim upon which relief may be granted. See Vega,

19

881 F.3d at 1155 (declining to expand Bivens in new context, and affirming district

20

court’s dismissal of Bivens claim).

21

3. Quasi-Judicial Immunity and Qualified Immunity

22

Defendant next argues that even if the Court determined a Bivens remedy is

23

implied in this case, Defendant is entitled to both quasi-judicial immunity and qualified

24

immunity. See Doc. No. 21-1 at 6-8. In opposition, Plaintiff attempts to distinguish the

25

cases cited by Defendant, and generally asserts that Defendant is not immune from suit.

26

See Doc. No. 27 at 17.

27

III

28

III
-11-

17cvl315-MMA (BLM)

Case 3:17-cv-01315-MMA-BLM

Document 44 Filed 03/29/19 PagelD.252 Page 12 of 16

1

a. Quasi-Judicial Immunity

2

Defendant claims that “when probation officers exercise discretion as part of their

3

official duties, they are immune from suit.” Doc. No. 21-1 at 6. Thus, because

4

Defendant’s decision to deny Plaintiffs request to move to San Diego was discretionary,

5

“quasi-judicial immunity protects [Defendant.]” Id. Plaintiff maintains that Defendant’s

6

decision was arbitrary and discriminatory in nature; thus, she is not entitled to quasi­

7

judicial immunity. See Doc. No. 27 at 22.

8

“Absolute judicial immunity insulates judges from charges of erroneous acts or

9

irregular action.” Burton v. Infinity Capital Management, 862 F.3d 740, 747 (9th Cir.

10

2017) (internal quotation marks and citation omitted). The doctrine “is not reserved

11

solely forjudges, but extends to nonjudicial officers for all claims relating to the exercise

12

of judicial functions.” Id. (quotation marks and citation omitted). “To be protected, the

13

function performed must involve the exercise of discretion in resolving disputes.” Id. at

14

748. The Ninth Circuit has applied this doctrine to damages actions under 42 U.S.C. §

15

1983, Demoran v. Witt, 781 F.2d 155, 156 (9th Cir. 1985), as well as Bivens actions,

16

Mullis v. U.S. Bankr. Ct.forDist. ofNev., 828 F.2d 1385, 1390 (9th Cir. 1987).

17

The Ninth Circuit has explained that absolute immunity “extend[s] to parole

18

officials for the imposition of parole conditions” because that task is “integrally related to

19

an official’s decision to grant or revoke parole,” which is a “quasi-judicial” function.

20

Swift v. California, 384 F.3d 1184, 1189 (9th Cir. 2004); see also Boyce v. Cnty. of

21

Maricopa, 144 F. App’x 653, 654 (9th Cir. 2005) (affirming the district court’s

22

conclusion “that the probation officer defendants were entitled to absolute quasi-judicial

23

immunity against damages claims.”). Moreover, “[w]hen a probation officer evaluates an

24

individual to determine whether he has violated the conditions of his probation, the

25

officer is entitled to quasi-judicial immunity.” Young v. Nevada, No. 17-cv-1062-RFB-

26

VCF, 2017 WL 1734025, at *4 (D. Nev. May 2, 2017). However, “[a]bsolute immunity

27

does not extend” to claims that “parole officers enforced the conditions of. . . parole in

28
-12-

17cvl315-MMA (BLM)

Case 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.253 Page 13 of 16

1

an unconstitutionally arbitrary or discriminatory manner.” Thornton v. Brown, 757 F.3d

2

834, 840 (9th Cir. 2013).

3

Here, the Court is unable to conclude at this time that Defendant is entitled to

4

quasi-judicial immunity. While Plaintiff does not dispute that Defendant’s decision

5

denying Plaintiffs transfer request was discretionary and related to her official duties,

6

Plaintiff claims that Defendant “unconstitutionally interfered with and then denied

7

Atwood the ability to seek medical care which he had obtained independently, himself,

8

from civilian doctors in the community.” Doc. No. 27 at 26. Further, Plaintiff alleges

9

that “the reasons cited for denying Atwood’s request to move to San Diego were neither

10

accurate [n]or based on official policy.” FAC f 86. Thus, taking Plaintiff s allegations as

11

true, which the Court must at this stage of the litigation, the Court cannot find that

12

Defendant is entitled to quasi-judicial immunity on this record.

13

b. Qualified Immunity

14

Defendant next contends that she is entitled to qualified immunity. See Doc. No.

15

21-1 at 7. Plaintiff, in opposition, asserts he has sufficiently alleged the deprivation of his

16

Eighth Amendment right to medical care (Doc. No. 27 at 23-24), and that existing

17

precedent placed Defendant on notice that her actions were unlawful under the

18

circumstances (Doc. No. 37 at 3).

19

“The defense of qualified immunity shields government officials performing

20

discretionary functions from liability for civil damages insofar as their conduct does not

21

violate clearly established statutory or constitutional rights of which a reasonable person

22

would have known.” Long v. City,& Cnty. of Honolulu, 511 F.3d 901, 905-06 (9th Cir.

23

2007) (internal citation and quotation marks omitted). A court considering a claim of

24

qualified immunity must determine whether the plaintiff has alleged the deprivation of an

25

actual constitutional right and whether such a right was “clearly established.” Pearson v.

26

Callahan, 555 U.S. 223, 236 (2009). The Court has discretion to determine which prong

27

to address first, taking into consideration the particular circumstances of the case. See id.

28
-13-

17cvl315-MMA (BLM)

Case 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.254 Page 14 of 16

i
1

“For a right to be clearly established, case law must ordinarily have been earlier

2

developed in such a concrete and factually defined context to make it obvious to all

3

reasonable government actors, in the defendant’s place, that what he is doing violates

4

federal law.” Shafer v. Cnty. ofSanta Barbara, 868 F.3d 1110, 1117 (9th Cir. 2017)

5

(citing White v. Pauly, 137 S. Ct. 548, 551 (2017) (explaining that “existing precedent

6

must have placed the statutory or constitutional question beyond debate . . . [because]

7

immunity protects all but the plainly incompetent or those who knowingly violate the

8

law”) (internal quotation marks and citation omitted)). The inquiry “must be undertaken

9

in light of the specific context of the case, not as a broad general proposition.” Saucier v.

10
11

Katz, 533 U.S. 194, 201 (2001).
The underlying purpose of this defense is “to strike a balance between the

12

competing need to hold public officials accountable when they exercise power

13

irresponsibly and the need to shield officials from harassment, distraction, and liability

14

when they perform their duties reasonably.” Mattos v. Agarano, 661 F.3d 433, 440 (9th

15

Cir. 2011).

16

Here, Plaintiff cannot demonstrate that Defendant violated “clearly established”

17

law. First, as mentioned above, Plaintiff fails to identify any Supreme Court or Ninth

18

Circuit law extending the Eighth Amendment right to adequate medical care to

19

individuals on supervised release, or any authority mandating inter-district transfers for

20

individuals on supervised release who seek to obtain medical treatment outside of their

21

respective judicial districts. Plaintiff cites to a decision from the Seventh Circuit,

22

wherein the court indicates, “[w]e have not yet addressed whether parole officers can be

23

liable for deliberate indifference to a parolee’s serious medical need[.]” Mitchell v.

24

Kallas, 895 F.3d 492, 502 (7th Cir. 2018). The Seventh Circuit stated that though parole

25

officers “may have no duty under Gamble to provide a parolee with medical care or

26

ensure that she receives it, they at least may be constitutionally obligated not to block a

27

parolee who is trying to arrange such care for herself without any basis in the conditions

28

of parole.” Id. The court then concluded that the plaintiff has sufficiently “pleaded
-14-

17cvl315-MMA (BLM)

Case 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.255 Page 15 of 16

1

enough to proceed on the theory that the parole officers acted with deliberate indifference

2

to her gender dysphoria by blocking her from getting care.” Id. Mitchell, however, is not

3

binding on this Court.6 Moreover, the Mitchell decision postdates the events in this case,

4

as Defendant denied Plaintiff s request to transfer to San Diego to obtain medical

5

treatment in mid-June 2017. See FAC

6

this case, it could not have placed Defendant on notice that her actions were unlawful

7

under the circumstances.

8
9

49, 56-57. Thus, even if Mitchell did apply to

Accordingly, the Court finds that Defendant is entitled to qualified immunity
because it is not clearly established that: (1) individuals on supervised release have a

10

constitutional right to medical treatment guaranteed by the Eighth Amendment; and (2)

11

that probation officers have an obligation to ensure an individual on supervised release

12

obtains medical treatment outside of his judicial district.7 See Wakefield v. Thompson,

13

No. 95-cv-137 FMS, 1996 WL 241783, at *4 (N.D. Cal. April 30, 1996) (“In the present

14

case, plaintiff attempts to extend the protections afforded by the Eighth Amendment to

15

individuals who have been released on parole. This extension is not supported by the

16

Supreme Court’s rationale.”), aff’d, 185 F.3d 872, 1999 WL 397496, at *1 (9th Cir.

17
18

1999) (unpublished opinion) (noting that plaintiffs parole officer had no “constitutional
£\J<jfVo'rvv.e_ck
VoWA favor' cA ^O-VoVce/O'VvVK

19

171 f-3d UCa <\* l**A

20
21
22
23
24
25
26
27
28

6 Plaintiff also cites Stewart v. Raemisch, wherein the district court issued an order finding the
plaintiff s Eighth Amendment claim against parole officers for deliberate indifference to medical needs
sufficient to pass screening pursuant to 28 U.S.C. § 1915A. No. 9-cv-123, 2009 WL 3754173, at *3
(E.D. Wise. Nov. 4, 2009). Plaintiff s reliance on Stewart is similarly misplaced because it is neither
binding on this Court, nor did the court in Raemisch address the issue of qualified immunity in its
screening order.
7 In light of the Court’s conclusion that Plaintiffs Bivens claim fails as a matter of law, the
Court DENIES AS MOOT Plaintiff s pending motions for summary judgment (Doc. No. 32), and for a
court order allowing access to legal materials (Doc. No. 33). See Nakamura v. Wells Fargo Bank, N.A.,
No. 12-cv-8146 SJO (CWx), 2013 WL 12138981, at *5 (C.D. Cal. March 7, 2013) (“The Court’s
dismissal of the instant action [with prejudice] moots Plaintiffs’ pending Motion for Summary
Judgment.”). Specifically, the Court need not look beyond the pleadings (to Plaintiffs medical records)
to determine that Plaintiffs Bivens claim fails, and that Defendant is entitled to qualified immunity.
-15-

17cvl315-MMA (BLM)

Case 3:17-cv-01315-MMA-BLM Document 44 Filed 03/29/19 PagelD.256 Page 16 of 16
(
i

1

obligation to provide [plaintiff] with medication, or a prescription, after his release [from

2

prison].”).
Conclusion

3
4

Based on the foregoing, the Court DENIES Plaintiffs motion for recusal.

5

Additionally, the Court GRANTS Defendant’s motion and DISMISSES Plaintiffs FAC

6

with prejudice. See McKesson HBOC, Inc. v. N.Y. State Common Ret. Fund, Inc., 339

7

F.3d 1087, 1090 (9th Cir. 2003) (noting dismissal without leave to amend is proper if it is

8

clear that “the complaint could not be saved by any amendment.”). The Clerk of Court is

9

instructed to enter judgment accordingly and close the case.

10
11

IT IS SO ORDERED.

12
13

Dated: March 29, 2019

14
15
16

HON. MICHAEL M. ANELLO
United States District Judge

17
18
19
20

21
22
23
24
25

26
27

28
-16-

17cvl315-MMA (BLM)

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DAVID GARLAND ATWOOD II, AKA
David Smith,
Plaintiff-Appellant,

FILED
AUG 21 2018
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 17-56010
D.C. No. 3:17-cv-01315-MMABLM

v.

MEMORANDUM*
UNITED STATES OF AMERICA; U.S.
PROBATION,
Defendants-Appellees.

Apflend'iY

ID

Appeal from the United States District Court
for the Southern District of California
Michael M. Anello, District Judge, Presiding
Submitted August 15,2018**
Before:

FARRIS, BYBEE, and N.R. SMITH, Circuit Judges.

David Garland Atwood II, AKA David Smith, a federal prisoner on
supervised release at the time he filed this action, appeals pro se from the district
court’s judgment dismissing his action brought under Bivens v. Six Unknown

*
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Named Agents ofFederal Bureau ofNarcotics, 403 U.S. 388 (1971), challenging a
condition of his supervised release and alleging inadequate medical care. We have
jurisdiction under 28 U.S.C. § 1291. We review de novo. Watson v. Carter, 668
F.3d 1108, 1112 (9th Cir. 2012) (dismissal under 28 U.S.C. § 1915(e)(2)(B));
Cement Masons Health & Welfare Trust Fundfor N. Cal. v. Stone, 197 F.3d 1003,
1005 (9th Cir. 1999) (dismissal for lack of subject matter jurisdiction). We affirm
in part, reverse in part, and remand.
As an initial matter, we note that Atwood’s supervised release was revoked
while this appeal was pending and that he is currently incarcerated in a federal
prison. We conclude that the portion of Atwood’s action seeking declaratory and
injunctive relief relating to a transfer to the San Diego Probation Office is now
moot. See Alvarez v. Hill, 667 F.3d 1061, 1063-64 (9th Cir. 2012) (claims for
declaratory and injunctive relief moot where inmate no longer had a legally
cognizable interest in the outcome of the case). However, Atwood’s request for
monetary relief based on denial of adequate medical care is not moot.
The district court properly dismissed Atwood’s action against the United
States and the United States Probation Office on the basis of sovereign immunity.
See Cato v. United States, 70 F.3d 1103, 1110-11 (9th Cir. 1995) (explaining that a
Bivens action cannot be brought against the United States or its agencies).
However, the district court abused its discretion in denying leave to amend because

2

17-56010

Atwood could amend to allege deliberate indifference against an individual federal
official, and such a claim is not barred by Heck v. Humphrey, 512 U.S. 477 (1994).
See Lopez v. Smith, 203 F.3d 1122, 1130-31 (9th Cir. 2000) (en banc) (setting forth
standard of review, and explaining that it is an abuse of discretion to deny leave to
amend when amendment is not futile); cf Thornton v Brown, 757 F.3d 834, 843
(9th Cir. 2014) (challenge to parole conditions was not Heck-barred where plaintiff
“does not challenge his status as a parolee or the duration of his parole and, even if
he succeeds in [his] action, nearly all of his parole conditions will remain in
effect”). We reverse the judgment in part and remand to allow Atwood an
opportunity to amend his complaint.
Appellees’ request for judicial notice (Docket Entry No. 18) is granted.
The parties shall bear their own costs on appeal.
AFFIRMED in part, REVERSED in part, and REMANDED.

3

17-56010

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 2 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DAVID SMITH-GARCIA, AKA David
Garland Atwood II,
Plaintiff-Appellant,
v.

*■'

A

PAULA BURKE, U.S. Probation Officer,

No.

19-55449

D.C.No.
3:17-cv-01315 -MMA-BLM
Southern District of California,
San Diego
ORDER

Defendant-Appellee,

C

and
' UNITED STATES OF AMERICA; U.S.
PROBATION,
Defendants.

Before: THOMAS, Chief Judge, and HAWKINS and McKEOWN, Circuit
Judges.
The panel votes to deny the petition for rehearing.
The full court has been advised of the petition for rehearing and rehearing en
banc and no judge has requested a vote on whether to rehear the matter en banc.
Fed. R. App. P. 35.
The petition for panel rehearing and the petition for rehearing en banc are
denied.

